No. 19A_____

In the Supreme Court of the United States
ERIC F. KELLY, APPLICANT
v.
UNITED STATES OF AMERICA
Certificate of Service
I, Zachary D Spilman, a member of the Bar of this Court, hereby certify that on this
5th day of December, 2019:
1. Pursuant to Court Rule 22.2, the original and two (2) copies of this
Application are submitted for filing by the Clerk via first-class mail (priority
mail), postage prepaid;
2. Pursuant to Court Rule 29.7, this Application is filed electronically in the
Court’s electronic filing system; and
3. Pursuant to Rule 29.3, one copy of this Application is served upon the
Solicitor General of the United States, Room 5616, Department of Justice,
950 Pennsylvania Ave., N. W., Washington, DC 20530-0001, via first-class
mail, postage prepaid, and also by email to: SupremeCtBriefs@USDOJ.gov
4. All parties required to be served have been served.

ZACHARY D SPILMAN
Counsel of Record
29 N. Main Street #97
Sherborn, MA 01770
844-SPILMAN
Zack@ZacharySpilman.com

